No.

IN THE SUPREME COURT OF THE UNITED STATES

 

STEVEN JONES
Petitioner

Vv.

UNITED STATES OF AMERICA
Respondent

 

PROOF OF SERVICE

 

I, Patricia Kemp, being first duly sworn on oath, deposes and states as follows:
On January 7, 2021, the original and ten copies of the petition for writ of certiorari
and motion to proceed in forma pauperis in the above-entitled case were deposited
with Federal Express in Mobile, Alabama, properly addressed to the Clerk of the
United States Supreme Court and within the time for filing said petition for writ of
certiorari and that an additional copy of the same was served upon the following

counsel of record for Respondent:.

George Martin, Esq. Solicitor General

Oliver McDonald, Esq. U.S. Department of Justice
U.S. Attorney’s Office Room 5616

Southern District of Alabama 950 Pennsylvania Ave., N.W.

63 South Royal Street, Suite 600 Washingion, D.C. 20530-001
Mobile, Alabama 36602

Respectfully Submitted,

Patricia Kemp, Esq. j

Southern District of Alabama
Federal Defenders Organization, Inc.
11 North Water Street, Suite 11290
Mobile, Alabama 36602

Tel: (251) 433-0910

Fax: (251) 433-0686

Email: Patricia_Kemp@fd.org
Counsel for Petitioner
